<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-417]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-417

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   on


S. 257                               S. 1073
S. 312                               S. 1202
S. 355                               S. 1403
S. 391                               S. 1438
S. 841                               S. 1459
S. 926                               S. 1522
 


                               __________

                             JULY 19, 2017

                               __________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                      Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-868                        WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c0b1c032c0f191f180409001c420f030142">[email&#160;protected]</a> 

                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada
                                 
                                 
                               ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        MAZIE K. HIRONO
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          ANGUS S. KING, JR.
ROB PORTMAN                          TAMMY DUCKWORTH

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Michelle Lane, Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1
Hirono, Hon. Mazie K., Subcommittee Ranking Member and a U.S. 
  Senator from Hawaii............................................     4
King, Jr., Hon. Angus S., a U.S. Senator from Maine..............     4

                               WITNESSES

Vogel, Robert, Acting Deputy Director, National Park Service, 
  U.S. Department of the Interior................................     5

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Aquanauts Adaptive Aquatics, et al.:
    Letter for the Record........................................    56
(The) Augustus Saint-Gaudens Memorial:
    Letter for the Record........................................    57
Blunt, Hon. Roy:
    Statement for the Record.....................................    59
Central High Neighborhood, Inc.:
    Letter for the Record........................................    60
CityArchRiver Alliance:
    Letter for the Record........................................    61
Columbus (Ohio) Downtown Development Corporation:
    Letter for the Record........................................    62
Cotton, Hon. Tom:
    Statement for the Record.....................................    63
Daines, Hon. Steve:
    Opening Statement............................................     1
    Hearing Announcement and Agenda..............................     3
Ernst, Hon. Joni K.:
    Letter for the Record........................................    64
Explore St. Louis (Missouri):
    Letter for the Record........................................    65
Global War on Terror Memorial Foundation:
    Statement for the Record.....................................    66
Got Your Six:
    Letter for the Record........................................    69
Hirono, Hon. Mazie K.:
    Opening Statement............................................     4
Iraq and Afghanistan Veterans of America:
    Letter for the Record........................................    70
King, Jr., Hon. Angus S.:
    Opening Statement............................................     4
Maine Coast Heritage Trust and Friends of Acadia:
    Letter for the Record........................................    71
Manchin III, Hon. Joe:
    Statement for the Record.....................................    73
McGraw, Dr. Patricia Washington, et al.:
    Letter for the Record........................................    74
National Veterans Memorial & Museum:
    Letter for the Record........................................    75
Outdoors Alliance for Kids:
    Letter for the Record........................................    77
Preserve Arkansas Board of Directors:
    Letter for the Record........................................    79
Public Lands Alliance:
    Letter for the Record........................................    80
Santa Rosa County (Florida) Board of Commissioners:
    Letter for the Record........................................    82
Shaheen, Hon. Jeanne:
    Statement for the Record.....................................    83
    Addendum: Information Regarding the Influence of Augustus 
      Saint-Gaudens and the Cornish Art Colony...................    86
Sierra Club:
    Letter for the Record........................................    92
Vet Voice Foundation:
    Letter for the Record........................................    95
Vogel, Robert:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    48
(The) Wilderness Society:
    Letter for the Record........................................    97



                               ----------
                               
                               
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
public/index.cfm/hearings-and-business-meetings?ID=9C398823-7906-4914-
B76F-565FA5584600.

 
                          PENDING LEGISLATION

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:22 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Steve Daines, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. The Subcommittee will come to 
order.
    The 12 bills we are examining this afternoon cover a wide 
range of issues relating to federal land administered by the 
Department of the Interior, primarily by the National Park 
Service (NPS). Today we will hear about legislation that 
includes a range of issues impacting park units including 
boundary adjustments, the establishment of national memorials 
both here in Washington, DC, and elsewhere around our country, 
redesignations, land conveyances and even issues related to 
park entrance fees and public land corps programs.
    I would like to take a moment and discuss Senate bill 1403, 
the 21st Century Conservation Corps Act of 2017. Right now in 
my home state of Montana there is a Veterans Public Lands Corps 
working hard at Glacier National Park. The Montana Conservation 
Corps have done some great work in fuel reduction and trail 
maintenance.
    I can tell you I have a state that is suffering from 
drought. It is very dry right now. And so, this fuel reduction 
is critically important to try to prevent massive wildfires. 
With the cost and intensity of catastrophic wildfire 
continually increasing and the deferred maintenance backlog for 
land management agencies affecting management and access, corps 
like the Montana Conservation Corps are good partners in 
tackling these challenges. I am anxious to hear more about how 
this legislation can work to expand the good work that these 
public land corps do in our national parks and forests in 
Montana and across the U.S.
    I will say, as I was growing up in Montana I nearly took a 
summer job working for the corps, working on some trail 
maintenance crews. And it is not only in terms of preventative 
maintenance, but also in providing important skill sets for a 
new generation of young Americans as well as veterans. There is 
nothing better than getting young people outdoors.
    In addition, we will hear testimony on Senate bill 926, a 
bill that would authorize the Global War on Terror Memorial 
Foundation to establish the National Global War on Terrorism 
Memorial as a commemorative work here in the District of 
Columbia. Since Senator Ernst introduced Senate bill 926 in 
April, 19 other Senators, including myself and Ranking Member 
Hirono, have co-sponsored this legislation. While the 
legislation requires some significant exemptions from the 
Commemorative Works Act, I believe this marks the beginning of 
a very necessary discussion regarding the need to appropriately 
honor those who have served in our nation's longest war.
    We are also going to talk about Senate bill 1522, the Every 
Kid Outdoors Act, which was introduced by Senators Alexander 
and Heinrich. It is my understanding that there may be a few 
details left to work out on that, but let me just say, I do 
support the concept of getting kids and their families spending 
some time together outside. I think that is something we all 
can certainly get behind.
    I look forward to a robust discussion today. I know that 
each of these agenda items are not only important to individual 
members of the Subcommittee, but to our nation, parks and 
citizens as a whole. Many on our list have passed the House of 
Representatives, a few of these bills have been heard before in 
this Subcommittee and others have been considered in previous 
Congresses. While a few of these bills may spark conversation, 
I am hopeful we can move through this list fairly quickly.
    The purpose of this hearing is to consider the 
Administration's views on these bills and allow Committee 
members an opportunity to ask questions they might have. We 
will also include written statements that have been sent to the 
Subcommittee in the official hearing record.
    Because of the large number of bills on today's agenda I 
will not read through the list, but at this time I will include 
the complete agenda in the hearing record, without objection.
    [The information referred to follows:]

                          COMMITTEE ON ENERGY 
                         AND NATURAL RESOURCES

                     Subcommittee on National Parks

                HEARING ANNOUNCEMENT AND AGENDA

    This notice is to advise you of a legislative hearing 
before the Committee on Energy and Natural Resources' 
Subcommittee on National Parks. The hearing will be held on 
Wednesday, July 19, 2017, at 10:00 a.m. in Room 366 of the 
Dirksen Senate Office Building in Washington, DC.
    The purpose of this hearing is to receive testimony on the 
following bills:
  <bullet> S. 257, Acadia National Park Boundary Clarification 
        Act
  <bullet> S. 312, Saint-Gaudens National Historical Park 
        Redesignation Act
  <bullet> S. 355, Wounded Veterans Recreation Act of 2017
  <bullet> S. 391, African Burial Ground International Memorial 
        Museum and Educational Center Act
  <bullet> S. 841, National Veterans Memorial and Museum Act
  <bullet> S. 926, Global War on Terrorism War Memorial Act
  <bullet> S. 1073, Escambia County Land Conveyance Act
  <bullet> S. 1202, Little Rock Central High School National 
        Historic Boundary Modification Act
  <bullet> S. 1403, 21st Century Conservation Corps Act of 2017
  <bullet> S. 1438, Redesignate Jefferson National Expansion 
        Memorial in the State of Missouri as the ``Gateway Arch 
        National Park''
  <bullet> S. 1459, A bill to establish Fort Sumter and Fort 
        Multrie National Park in the State of South Carolina, 
        and for other purposes
  <bullet> S. 1522, A bill to establish an Every Kid Outdoors 
        program, and for other purposes
    Senator Daines. Let me now turn to the Ranking Member, 
Senator Hirono, a great partner here in the Parks Committee, 
for her opening remarks.

              STATEMENT OF HON. MAZIE K. HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    Across our country, our national parks and public lands 
preserve environments that are meaningful to our communities. 
In Hawaii, this includes protecting native plants and animals 
and sites that hold deep, cultural significance to the Native 
Hawaiian community. Many of the bills we are considering today 
represent worthy ideas to improve and expand access to our 
public lands and national parks. Before we hear from our 
witness, I would like to comment on two of these bills briefly.
    I am a co-sponsor of S. 355, the Wounded Veterans 
Recreation Act, introduced by Senator Shaheen. This bill would 
provide a free, lifetime National Parks and Federal 
Recreational Lands Pass to veterans with a service-connected 
disability. Several veterans service organizations have 
highlighted the healing influence of spending time in our 
national parks, forests and other public lands. Providing 
service-disabled veterans with lifetime passes to our national 
parks and public lands would convey our gratitude for their 
service.
    The second bill I would like to highlight, also highlighted 
by the Chair, is S. 1403, the 21st Century Conservation Service 
Corps Act of 2017, sponsored by Senator McCain. This bill would 
strengthen partnerships that engage youth and veterans in 
maintaining public lands and waters. In Hawaii, our accredited 
21st Century Conservation Service Corps member is the Hawaii 
Youth Conservation Corps, also known as KUPU. Over the past 10 
years, KUPU has provided training to over 3,000 of Hawaii's 
youth to become stewards of our culture and aina, or land. I 
know the Department's testimony recommends that Congress defer 
action on this bill until they can undergo a review of their 
youth programs, and I will address this recommendation with our 
witness this morning.
    Mr. Chairman, I understand that there are continuing policy 
concerns about a number of these bills on the agenda today. I 
look forward to working with you and the bill sponsors to help 
move these bills through the Committee.
    Thank you, Mr. Chairman.
    Senator Daines. Thank you, Senator Hirono.
    Are there any other Senators who would like to make a short 
statement on the legislation today?
    Senator King. Yes, Mr. Chairman, if you would.
    Thank you.
    Senator Daines. Senator King.

             STATEMENT OF HON. ANGUS S. KING, JR., 
                    U.S. SENATOR FROM MAINE

    Senator King. S. 257, Acadia National Park Boundary 
Clarification Act. We have had quite a bit of discussion about 
this with the National Park Service and also with the House. 
There are some questions, but we are attempting to work out 
language that will be satisfactory to all.
    Basically, there was a 1929 Act that established Acadia 
National Park and then in 1986, there were questions about the 
boundary of the park, and it was established and fixed. I 
believe one of the staff members that perhaps worked on that, 
or at least worked in the Office of Senator Cohen, was one 
Susan Collins. So, anyway, that fixed the boundary.
    Then several years ago there was a transfer of about 1,500 
acres pursuant to the '29 Act but arguably in violation of the 
'86 boundary. This bill corrects that problem and deals with 
some of the other issues along the boundary.
    Mr. Vogel, I do not know if you want to add anything, but 
this is something that we are assiduously trying to get worked 
out. I think it is a fairly straightforward bill and should be 
non-controversial once we work through the various provisions. 
Is that accurate?
    Thank you. It is very important to this region and I will, 
at the appropriate time, urge the Committee's active 
consideration.
    Thank you.
    Senator Daines. Thank you, Senator King.
    It is now time to hear from our witness, Mr. Robert Vogel, 
Acting Deputy Director for Operations, National Park Service, 
U.S. Department of the Interior. Thank you for being with us 
today. At the end of your testimony, we will begin questions. 
Your full written testimony will be made part of the official 
hearing record.
    Mr. Vogel, you may proceed.

  STATEMENT OF ROBERT VOGEL, ACTING DEPUTY DIRECTOR, NATIONAL 
         PARK SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Vogel. Thank you.
    Chairman Daines, Ranking Member Hirono, thank you so much 
for the opportunity to present the Department of the Interior's 
views on 12 bills on today's agenda. I would like to submit our 
full statements on each of these bills for the record and would 
like to summarize the Department's views.
    The Department supports the following bills:
    --S. 312, which would redesignate the Saint-Gaudens 
National Historic Site in Cornish, New Hampshire, as the Saint-
Gaudens National Historical Park;
    --S. 335, which would amend the Federal Lands Recreation 
Enhancement Act to authorize the Secretary of the Interior to 
make the lifetime National Parks and Federal Recreational Lands 
Pass available without cost to any veteran with a service-
connected disability;
    --S. 926, which would authorize the Global War on Terror 
National Memorial Foundation to establish the National Global 
War on Terrorism Memorial as a commemorative work on federal 
land here in the District of Columbia;
    --S. 1073, which would provide the authority to Escambia 
County, Florida, to convey property, subject to certain 
conditions, that it received from the Federal Government in 
1947;
    --S. 1202, which would modify the boundary of Little Rock 
Central High School National Historic Site and expand the 
park's authority to enter into cooperative agreements;
    --S. 1438, which would redesignate the Jefferson National 
Expansion Memorial in the State of Missouri as the Gateway Arch 
National Park; and
    --S. 1459, which would establish Fort Sumter and Fort 
Multrie National Park in the State of South Carolina.
    The reasons for our support of these bills are explained in 
our full statements. For several of the bills we are requesting 
amendments and we would be happy to work with the Committee, of 
course, on drafting them.
    Regarding S. 257, which would clarify the boundary of 
Acadia National Park and includes changes to a range of 
authorities for the park, the Department has various positions 
on each of the bill's nine sections. These positions are 
explained further in our written statement and we would be 
happy to work with the Committee, of course, on recommended 
amendments, particularly with regard to providing 
administrative boundary adjustment authority and limiting the 
authority for harvesting clams and worms to the traditional 
level at which it occurs now.
    The Department defers to the Department of Veterans Affairs 
for a position on S. 841 since the purpose of the legislation 
is to confer a title on a memorial and museum designed to honor 
veterans.
    The Department recommends that Congress defer action on the 
following two bills until we have had an opportunity to review 
all of the Department's youth programs and determine the most 
cost-effective strategies for engaging youth in our nation's 
great outdoors: those bills are S. 1403, which would establish 
the 21st Century Conservation Service Corps; and S. 1522, which 
would establish the Every Kid Outdoors Program.
    The Department opposes S. 391 which would establish the 
African Burial Ground National Monument Museum and Education 
Center to serve as a memorial to the enslaved who are buried at 
the African Burial Ground and to other enslaved Africans and 
African Americans. We do not have yet the necessary information 
to evaluate this proposal as there has been no comprehensive 
study that addresses the purpose, need, feasibility or cost to 
establish an associated museum or a study that evaluates 
alternatives for such a facility.
    Mr. Chairman, this concludes my statement. I would be very 
pleased to answer any questions that you may have.
    [The prepared statements of Mr. Vogel follow:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you for your testimony, Mr. Vogel. I 
will start off with some questions here.
    Like I mentioned in my opening testimony, I agree with 
Senator Ernst and Ranking Member Hirono and the other 19 co-
sponsors of Senate bill 926. It is important we commemorate the 
ongoing sacrifices being made by those who have given so much, 
many the ultimate sacrifice, in the global war on terror.
    One of the key discussions I think we do need to have with 
this legislation is the unique nature of the global war on 
terror itself. I think we can all agree that the nature of 
modern warfare has changed so that it can be difficult to 
figure out how to commemorate a conflict that has lasted nearly 
two decades at this point without, truly, a clear end in sight. 
Certainly, a different set of circumstances than a building 
say, that would be the World War II or the Martin Luther King 
Memorial.
    Setting aside the exemptions that this legislation would 
require from the Commemorative Works Act for a moment, does the 
NPS have any specific suggestions as to how we might proceed in 
terms of the process for this memorial which faces some unique 
challenges? How might we appropriately approach that?
    Let me throw something out. For example, would NPS accept 
the current definition of global war on terror as defined in 
the legislation or would you wish to defer to the Department of 
Defense (DoD) on that issue? If you agree to waive the waiting 
period requirement do you anticipate this hitting a problematic 
precedent in relation to other proposed commemorative works?
    Mr. Vogel. Well, Mr. Chairman, the Department does value 
and support, in general, the waiting period for commemorative 
works as established in the Commemorative Works Act in 1986. 
However, I think that we might all agree that the nature of 
military conflict has changed in the last 30 years and the 
Department recognizes that the global war on terror really does 
not conform to how military conflicts were once understood.
    While the nation hopes, of course, for a clear end to this 
ongoing war, it is apparent that it's not going to end soon and 
that a sustained and potentially war effort remains ahead of 
us. So it would not do justice to those who served and died in 
a conflict that started almost 16 years ago, to wait for 
decades to honor their service.
    I think we do recognize the unique nature of this while we 
still very much support the overall time restrictions in the 
Commemorative Works Act. I think we would recognize that this 
is a unique situation.
    Senator Daines. In terms of perhaps deferring to DoD on 
this issue, is that something that we might pursue, do you 
suggest, to define the global war on terror?
    Mr. Vogel. I think we certainly would work with the 
Department of Defense on defining that and we've done some 
initial work and again, I think we recognize that it's gone on 
for at least 16 years, but we would work with them to identify 
the key five operations that we've already identified related 
to the global war on terror.
    Senator Daines. Mr. Vogel, I want to shift gears and talk 
about Senate bill 391. As written this would add a museum in 
lower Manhattan to the existing African Burial Ground National 
Monument. The Monument as it exists today includes an outdoor 
site that commemorates and interprets the large gravesite as 
well as a visitor center in the nearby General Services 
Administration (GSA)-owned building that interprets the site 
further and provides a comprehensive story of enslaved persons 
in New York history. The question is this: do you consider the 
current outdoor site and the visitor's center for the current 
African Burial Ground National Monument as insufficient to tell 
the story behind the significance?
    Mr. Vogel. I think at the current time we do feel that it 
is sufficient and I think we are willing to consider the 
proposed legislation in the future, but we need to do some 
initial planning.
    We certainly have our new African American Museum here in 
Washington, DC, that tells some of the same stories. And I 
think we need to go through a complete planning process to 
determine, fully, what this additional proposal would be like.
    Senator Daines. Do you believe, or I should say, does the 
NPS believe that the site's purpose should be expanded in 
scope?
    Mr. Vogel. I think at the current time we feel that the 
current scope is adequate to telling this very important story 
to our nation.
    Senator Daines. My last question, then I am going to turn 
the gavel over to Senator Hirono here as we have a vote that 
has been called.
    Senate bill 391 proposed a partnership between the 
Smithsonian, the NPS and GSA. Is there anything preventing the 
NPS from entering such a partnership if it was an interest to 
the U.S. without the passage of S. 391?
    Mr. Vogel. There is nothing that would prohibit us from 
doing that.
    Senator Daines. So, said another way, doesn't the NPS 
already have the authority to enter into partnerships with 
other units of government and/or non-profit organizations?
    Mr. Vogel. We indeed do have the authority. In fact, we 
work with both of those organizations in a number of ways in 
cooperative agreements.
    Senator Daines. Thank you, Mr. Vogel.
    I will turn the gavel here over to Senator Hirono.
    Senator Hirono [presiding]. Thank you, Mr. Chairman.
    Mr. Vogel, thank you very much for supporting 7 of the 12 
bills that are on the agenda today.
    With regard to your position or the Department's position 
to defer action on two of these bills, S. 1403 and S. 1522, 
both having to do with youth programs and supporting youth 
engagement in our parks, are you undergoing such a review now, 
and what is the timeframe? With regard to both of these bills, 
are you reviewing the programs that are encompassed in these 
bills? Are you doing a review of these programs, and what are 
you focusing on in your review of these youth programs?
    Mr. Vogel. Well, we are not undergoing a formal review of 
either program, so we can't give you any exact timeframe. But 
certainly with the change in Administration, it's a normal 
process for us to want to look at these programs and to get a 
full extent of what they currently are and what are the most 
cost-efficient and effective ways to provide services to our 
youth.
    We've had, as the testimony indicates, we've had great 
success with the Every Kid in a Park Program and, of course, 
that is still continuing through the end of August. And we've 
had great support with our Corps Network. And so, we're hopeful 
that we will still have robust youth programming in the 
Department of the Interior. I think we just need a little bit 
more time to fully vet the existing programs and to figure out 
our approach in the future.
    Senator Hirono. Do you have a list of all of the existing 
programs that impact youth in our country with regard to your 
mission?
    Mr. Vogel. I do not have that with me. We certainly have a 
wide variety of incredible programs.
    Senator Hirono. Could you provide the Committee with such a 
list?
    Mr. Vogel. Absolutely.
    Senator Hirono. Of course, to the extent that you can 
coordinate with other departments, for example, the Department 
of Education, with your review, I hope you will undergo that 
because I think that these programs have proven themselves to 
be worthy of support and that you do undergo the review in an 
expeditious way so that these programs can be continued. And 
while you are at it, will you coordinate with other departments 
that would have an interest in supporting our young people's 
experiences?
    Mr. Vogel. Yes, Senator, in fact we are definitely planning 
on engaging with the Department of Education on these efforts.
    Senator Hirono. Also, with regard to S. 1403, I think you 
should consult with The Corps Network. That is another group.
    S. 1522, again, which authorizes the Every Kid Outdoors 
Program, builds on the Department's Every Kid in a Park 
initiative that was put in place a few years ago. My 
understanding is that the Department's initiative was very 
popular and was considered to be successful in introducing 
fourth graders to our national parks and other public lands. As 
I said, I hope that since this program has proven itself that 
the deference of support for this program, I hope, is something 
that is going to be resolved. We would like to have these 
programs continue expeditiously.
    Can you comment on the National Park Service's experience 
with the Every Kid in a Park initiative and from your 
perspective how effective was this program in introducing our 
young people to our parks?
    Mr. Vogel. From my perspective it's been a very effective 
program and we've reached hundreds of thousands of young people 
in the fourth grade in not only engaging the students, but 
bringing their families along with them to learn about our 
national parks.
    And again, I think the Department indicates that it's been 
very successful, but we, again, would like to, again, do a full 
assessment of the program and perhaps add language, again, for 
the Secretary of Education to collaborate with the other 
secretaries involved and perhaps include homeschooled students 
in the language and to better define the access to public lands 
and waters. So I think we want to just defer that until we have 
a little bit more time to assess the program.
    Senator Hirono. You indicated that this is a normal kind of 
an assessment that all of the departments are doing with regard 
to ongoing programs. I do not know where the review of your 
youth programs falls within the purview of all the other 
programs that you are reviewing. So where does it fall in terms 
of your priority for review?
    Mr. Vogel. I really don't have a timeframe. Again, we 
haven't undergone a formal review process. I would hope that it 
would be an expeditious review, but I don't have a timeframe 
for that. I apologize.
    Senator Hirono. Are you going to be developing a timeframe?
    Mr. Vogel. Yes, we will.
    Senator Hirono. And when you do that could you let----
    Mr. Vogel. We, of course, will let you know.
    Senator Hirono. ----our Committee know so that we can make 
sure that we are on the same page?
    My time is up.
    Senator Heinrich.
    Senator Heinrich [presiding]. Thank you.
    I think our Ranking Member has been very diplomatic in her 
language around this. I would hope that we could do more than 
hope.
    You said this is a very effective program. I want to speak, 
not just to S. 1522 but also to S. 1403, because the bill 
introduced by Senators McCain, Bennet and Udall to establish 
the 21st Century Conservation Service Corps as well as the 
Every Kid Outdoors Act have a long history of success.
    You said Every Kid Outdoors is a very effective program, 
and we have had great success. So why should we put these 
programs in jeopardy while investing precious National Park 
Service resources and money into another bureaucratic review?
    Mr. Vogel. Well, I wouldn't necessarily say that the 
programs are in jeopardy. I think that the hearing came up on 
fairly short notice and the Department has just asked for 
additional time to review so that we could come up with a 
formal position on it.
    Senator Heinrich. How much time do you need?
    Mr. Vogel. I can't answer that, but I would think that we 
would be trying to do it expeditiously. And I certainly can 
provide a timeframe to----
    Senator Heinrich. Mr. Vogel, what does that mean, 
expeditiously? Are we talking about a few days, a few weeks, a 
few months? If you are going to ask for time you should know 
how much you need.
    Mr. Vogel. I would think it would take several months to 
complete the review looking at all of the other programs that 
we're currently under review on. We certainly can provide a 
clearer timeframe.
    Senator Heinrich. So I know we have a vote on the Floor. 
There are a number of points I was going to make; however, I 
think I am going to wrap up my comments and say that on behalf 
of those of us who have worked on these issues that government 
can always find a reason not to do something and they can 
always find a reason to do the bureaucratic thing. I would hope 
that we would take this opportunity rather to do the right 
thing. I hope the Committee will choose not to defer these 
bills.
    I want to commend Senators McCain, Bennet and Udall on 
their work on the 21st Century Conservation Service Corps bill; 
I want to commend Senator Alexander on his work with me on 
Every Kid Outdoors; and I hope this Committee will move 
expeditiously, as well as being willing to work with you on 
actual underlying criticisms of these legislations.
    Senator Portman, ready to take the baton?
    Senator Portman. Yes.
    Senator Heinrich. Yes.
    Senator Portman [presiding]. Thank you, Mr. Chairman, I 
appreciate it.
    First of all, thank you for being here, Mr. Vogel.
    As you know, I have been focused on the backlog of the Park 
Service for some time and we have been able to help in small 
ways with the Centennial Initiative which we got passed at the 
end of last year, I think at five o'clock in the morning. We 
are looking forward to proactive implementation of that 
legislation, including getting more public-private partnership 
dollars in both for the Park Service directly and for the 
Foundation which can then help on the backlog.
    I want to talk to you about another issue as well and that 
is new legislation, the National Park Service Legacy Act that 
Senator Warren and I have introduced. Do you support that?
    Mr. Vogel. Well, I think that we very much appreciate your 
interest in deferred maintenance and we share your concern that 
it's a significant issue for us. And I think that we would just 
respectfully request a little additional time to figure out our 
position on that.
    Senator Portman. It would be a huge shot in the arm for the 
Park Service. The number that I hear most frequently is $12 
billion which is a big number, eye-popping really. Senator 
Warren and I think that this is a way for us to go beyond what 
we were able to do in the Centennial Initiative and really 
provide the Park Service the ability to deal with the backlog.
    Let me ask you about another issue. As you may know, in 
Columbus, Ohio, there is a National Veterans Memorial being 
designed right now. I have been there. I have seen the site. It 
is spectacular, and it is a classic example of a public-private 
partnership, heavy on the private side. In fact, $75 million 
has already been contributed from private foundations, 
individuals and corporations to make this museum a reality.
    What it does is it holds up the veteran, in every respect. 
It is a beautiful design, but once the interior is completed 
and the exhibits are there I think it will be something that 
will be able to both honor and connect us to veterans but also 
inspire and educate Americans to the importance of service and 
the sacrifice that our veterans have made will be highlighted.
    I am really excited about it and we are home, in Ohio, to 
the sixth largest veteran population in the country. In fact, 
Columbus was the birthplace of the Veterans of Foreign Wars, 
the first organization to represent all U.S. veterans who 
fought overseas. We are also home to a lot of military bases, 
as you know, including Wright Patterson Air Force Base which is 
the largest logistical base in the country. So we think we are 
well situated to be able to have this museum there.
    I noticed in your testimony you expressed some concerns 
about designating this as a national museum. Let me ask you one 
question, again, having worked on your backlog for years now, 
going back to my days at the Office of Management and Budget 
(OMB). Does the National Park Service intend to create a new 
unit of the National Park Service, similar to the veteran's 
museum being built in Columbus, that will honor the lives and 
history of our nation's veterans?
    Mr. Vogel. We do not, and it certainly seems like an 
incredible and worthwhile endeavor. I think we would just defer 
to the Department of Veterans Affairs (VA) since it really 
doesn't use any of our lands and have direct involvement with 
the National Park Service. It does sound like a very worthwhile 
endeavor.
    Senator Portman. Well, I appreciate your saying that. I 
would just hope that, at the very least, the Park Service would 
not stand in the way of us raising private dollars to be able 
to do such a worthy mission, as you have talked about. We would 
appreciate your not making it more difficult for us to 
designate this as a national museum and to get this legislation 
that we have completed.
    So I thank you for that comment and I thank you for your 
willingness to be helpful in honoring our veterans and also 
your work with us on the appropriate way to deal with the 
backlog, in addition to what we were able to do in the 
Centennial Act.
    I am told that this hearing is now going to be in recess 
until Senator Daines returns. I do not have a gavel, so I will 
take Senator Hoeven's nameplate.
    We are officially in recess until the return of the 
Chairman.
    Thank you, Mr. Vogel.
    [RECESS.]
    Senator King [presiding]. ----there seems to be no real, 
serious effort to coordinate the way these things work 
together. In fact, I was in a hearing before coming here with 
the proposed Deputy Director of the National Intelligence 
Office. I suggested, perhaps, the Intelligence community could 
design a schedule for us so that we do not have so many 
conflicts.
    Mr. Vogel. That's perfectly alright.
    Senator King. I appreciate your being here. I look forward 
to working with you.
    I think there are several provisions of the Acadia bill 
that are important to discuss. One is the worming and clamming 
issue. There was worming and clamming in that intertidal zone 
long before anybody ever thought of Acadia National Park. We 
have to get that worked out because it is a traditional and 
important business for people in that region. I understand the 
Park Service concern about the breadth of the language, so I 
will look forward to working with you on that. Secretary Zinke 
has given me his commitment to work with us on this issue, and 
I hope we can get it resolved in this bill. If you want to 
state your concerns for the record, I think that might be 
helpful.
    Mr. Vogel. Absolutely.
    We do support, with conditions, permitting the long 
tradition of harvesting of clams and worms at Acadia, but only 
if such harvesting can be kept at the minimum levels in which 
it occurs now and where the activity occurs, as it does now, by 
non-mechanized means and in small numbers of locations.
    However, the language of Section 8 extends authority for 
harvesting far beyond what is needed to allow traditional 
harvesting of clams and worms. So we do have some concerns 
about expanding the harvesting to other marine organisms or to 
aqua culture activity and believe that not only should 
intertidal harvesting be limited to clams and worms, using non-
mechanized methods, but considering the 3.3 million visitors 
coming to Acadia last year and the sensitive nature of the 
intertidal area, that these activities should be subject to 
those regulations and rules that the Secretary deems necessary 
to protect the important park resources and, of course, the 
safety of our park visitors.
    Senator King. Well, I think that you use the term minimum 
or minimal. I think we would prefer the use of the term 
traditional.
    Mr. Vogel. Yes.
    Senator King. The idea, I think, as we all agree is to 
allow traditional clamming, worming, and periwinkles, as has 
been used. The discussion is about mechanized and about other 
types of marine organisms, perhaps seaweed and those kinds of 
things. So we will follow up on those discussions and work with 
you, but I hope that it is the position of the Department that 
the traditional uses are to be allowed.
    Mr. Vogel. Very much so, Senator.
    Senator King. Thank you.
    There was one part of the testimony that puzzled me a 
little bit. In 1986, there was a provision in the statute to 
transfer $350,000 from the Park Service to the local 
communities to participate in waste disposal. The idea was to 
create a waste facility. That is no longer the case, but they 
are now talking about a transfer station and here you mentioned 
3.3 million visitors--that is a lot of waste.
    For some reason the Department has never made that 
transfer. We should have put interest in that bill in 1986, but 
is there some reason? This is a funding requirement in the law, 
and I hope we can work with the Department to see that this 
transfer is made, subject to appropriations.
    Mr. Vogel. My understanding is, indeed, it was authorized 
but it was never funded. And I guess the facility wasn't fully 
brought into operation.
    We do pay a tipping fee to the local municipality for all 
of the waste generated by park visitors. The Department really 
doesn't believe that this type of subsidy for municipal waste 
disposal is an appropriate use of federal funds, so we do 
oppose that section.
    Senator King. But I presume since it has already been 
authorized in law, if it's appropriated you would spend it 
according to the appropriation?
    Mr. Vogel. I believe we would have to, yes, sir.
    Senator King. Thank you. That was the right answer. I 
appreciate your testimony.
    There is one other area of discussion and that is you are 
requesting greater authority for boundary transfers. I think 
the problem that we have with that is that that is, sort of, 
what got us into this in the first place in terms of the 
communities not being involved in the enlargement of the park. 
That is the sensitivity in the area, and I think that is a 
provision that, perhaps, should be in different legislation or 
there should be a different way to approach it, but I am 
reluctant to include that here because that would take us back 
into the problem that brought about the 1986 legislation--that 
is the expansion of the park without authorization of Congress.
    Mr. Vogel. I think we would be happy to work with you and 
the Committee on that, Senator. Our goal is in the small 
boundary adjustment, authority would, of course, require us to 
work with the local communities and, of course, give 
notification to Congress.
    We find throughout the Park Service that we frequently have 
some odd situations of a few acres here or there that are 
irregular or someone builds a garage inadvertently and we 
discover 10 years later that it's on federal property. And so, 
it gives us some leeway to adjust the boundaries. And we, in no 
way, are intending to do that without consulting with the local 
community or Congress.
    Senator King. Well, we will have to discuss that position 
further with the Department.
    Mr. Vogel. Certainly.
    Senator King. There is a famous story about the man who 
lived on the Maine-New Hampshire border, and he was 80 years 
old. They resurveyed and found out that all these years he had 
been in New Hampshire. They asked him what he felt about that 
new survey and he said, ``I'm really delighted because I don't 
think I could have taken another one of those Maine winters.''
    [Laughter.]
    Mr. Vogel. I like that story.
    Senator King. Thank you, Mr. Vogel.
    Senator Daines [presiding]. Thank you, Senator King.
    Mr. Vogel, as I mentioned in my opening remarks, there is a 
veteran's crew working in Glacier National Park as we speak, as 
well as several other Veteran Corps working around the country, 
mostly on Forest Service land. The Montana Conservation Corps 
has done some great work in our state.
    I am interested in learning more about how this legislation 
might help veterans and other young people. In Montana, we have 
one of the highest per capita veteran populations in the United 
States. So how might this help veterans, other young people and 
expand employment opportunities while also doing something very 
important, and that is reducing the threat of wildfires. Can 
you expand upon how the National Park Service might use this 
legislation to pair those opportunities?
    Mr. Vogel. Well, I think we have used this authority and 
should the Department decide to continue with it, I think 
there's a number of ways that we could partner, continue to 
partner and expand our involvement with veterans in all sorts 
of ways and certainly in wildfire remediation.
    As we've all discussed here we have enormous maintenance 
projects and backlogs, and we have successfully used these 
corps to help us in our critical work there in a cost-efficient 
way and in a way that provides important skills to members of 
the crews. In backlog maintenance and providing more recreation 
and access to our park lands and certainly can be useful in our 
rural workforce development too. So I think we've had some 
great successes in the past.
    Senator Daines. To follow up, we have focused a great 
amount on this Committee on the--there are two words that I 
hear a lot as relates to our national parks as I travel to our 
national parks. I have one of the park season passes there in 
my pickup back home. We are passionate about our parks, and we 
get to them a lot. But it is the words ``deferred 
maintenance.'' It is not the most exciting topic to talk about, 
but arguably it is one of the critical issues facing our 
national parks today. We have this huge backlog in the National 
Park Service.
    While a big portion of that can be attributed to roads, 
there is still a significant amount that can be accounted for 
in general infrastructure, trails and overall preservation. And 
corps, like the Montana Conservation Corps in my home state, 
have partnered with concessionaries to leverage private-public 
funds to try to accomplish some of these projects while 
providing essential workplace skills to young adults at the 
same time. I will tell you, nothing is better training than 
just doing hard work which is part of the process.
    Can you talk more about how this legislation might help the 
National Park Service and the existing corps facilitate more 
backlog and maintenance projects generally getting 
accomplished? And the follow-up is, do you feel that this 
legislation might, even in a minor way, work toward stretching 
the NPS budget a bit further or contributing to reducing the 
deferred maintenance backlog?
    Mr. Vogel. Well, certainly if we continue with this 
program, I think we would want to make sure that it's an 
incredibly cost-efficient program. And I think it could be, 
certainly using young people and engaging people that are part-
time employees is an incredibly effective way that can provide 
critical job training and helping us in our myriad of projects 
throughout the country in deferred maintenance. So I think if 
we continue the program, that's part of the evaluation that we 
want to do is find out, you know, the most cost-effective, 
efficient way to continue the programs. But certainly, use of 
young people and job corps would be one way that we have been 
very effective in making cost-effective inroads into our 
deferred maintenance.
    Senator Daines. Last question and then I am going to turn 
to a second round here for the other members.
    As our military continues to protect us from ever-changing 
global risks, we are united across all 50 states, across the 
aisle, supporting our veterans who have shared in sacrificing 
for the freedoms that we all enjoy here today and we take them 
for granted, frankly.
    I think Senate bill 355 is well-intended, but I want to 
make sure we do not create any additional administrative 
burdens for veterans or create an unnecessary cost in this 
process. I know some changes have been made to the language in 
the legislation this last Congress, but here is the question. 
What would currently prohibit a disabled veteran from obtaining 
a free access pass?
    Mr. Vogel. There, in our opinion, really is nothing that 
would prohibit anyone from getting the pass now. And so, again, 
that's some of our questions. We just want to clarify it. We 
certainly are very supportive of veterans having----
    Senator Daines. So the question then is, how would the bill 
provide additional benefits to the existing access pass for a 
disabled veteran?
    Mr. Vogel. I guess that's our question. We would like to 
evaluate the bill further and work with the Committee for some 
clarification on it to make sure that we are able to truly 
define disabled veterans and certainly wouldn't want a veteran 
to arrive at an entrance station and have to provide some 
paperwork which they might not have with them and somehow deny 
them access. So we would like to work with the Committee to 
clarify that.
    Senator Daines. Do you think--and this is my last question, 
then I will be done.
    Would implementing this legislation require additional 
funding or staff in your agency?
    Mr. Vogel. I don't think so. I'd have to defer on that a 
little bit. I can get you an answer.
    Senator Daines. Okay.
    Thank you.
    Ranking Member Hirono.
    Senator Hirono [presiding]. Let me just follow up on S. 
355, the veteran passes.
    Currently anyone with a permanent disability, as I 
understand it, can get a pass to go to our national parks--
those with a permanent disability or total disability. What is 
the criteria that already exists?
    Mr. Vogel. Really anyone that has a permanent disability 
can get a park access pass today.
    Senator Hirono. My question is what constitutes permanent 
disability?
    Mr. Vogel. I think that is part of the clarification that 
we would like to follow in this. We, generally, are not asking 
people to provide identification at an entrance station as to, 
you know, what their disability is.
    Senator Hirono. You are confusing me.
    So people, who are not necessarily a veteran, but people 
with permanent disabilities can already get free passes to our 
national parks?
    Mr. Vogel. That is correct.
    Senator Hirono. And you already have some kind of process 
for this to occur?
    Mr. Vogel. Yes, we do.
    Senator Hirono. There should be a definition that you have 
for what constitutes permanent disability that is showing that 
someone has to provide in order to get a free pass.
    What we are doing with this bill is basically to open the 
opportunity for people with less than 100 percent disability. 
This is why I do need to get clarification on the necessity for 
this bill. We are not looking to just those veterans who have 
100 percent permanent disability. We need to get to a certain 
level of disability.
    As we implement something like this, I would think that you 
would want to figure out ways to work with the VA so that when 
they get their ratings for their level of disability, it could 
be that they would just automatically get a free pass from you 
all.
    There are some things that need to be worked out, and I 
would want to be working with you on how to get this clarified 
because I do see a need for this bill.
    Mr. Vogel. Indeed, Senator.
    And our guidance comes from the Rehabilitation Act. Our 
intent is not to keep any veterans with any disability from 
having free access to the parks. So we would just like to work 
with you and the Committee to clarify that. I think we have a 
mutual goal of providing free access to our disabled veterans.
    Senator Hirono. Getting back to the youth programs, Senator 
Heinrich said that I was very tactful in my questioning of you, 
but I do not want my tactfulness to be interpreted as somehow 
being really benign about giving you a timeframe that could 
result in nothing happening with these kinds of programs.
    I would ask you to have a sense of purpose and urgency 
about supporting these programs. I think it is really critical 
that the young people in our country have the experience of 
being in our national parks. There are a lot of cultural 
aspects to this, and you are creating another generation of 
people who are going to be very supportive of our parks, and I 
think that is critical. So, there is a sense of purpose and 
urgency there.
    Mr. Vogel. Indeed.
    Senator Hirono. Thank you.
    Senator Alexander.
    Senator Alexander [presiding]. Thank you, Senator.
    Senator Daines went to vote.
    Senator King, have you had an opportunity to ask questions?
    Welcome, I am glad you are here.
    Mr. Vogel. Thank you.
    Senator Alexander. Thanks for staying until I could get 
here.
    I was talking with some Senators from the Committee on the 
Floor of the Senate as we voted and it seems like the thrust of 
the discussion is that these two programs, the Every Kid 
Outdoors and the 21st Century Conservation Service Corps Act, 
both seem like good ideas to the Park Service. Is that right?
    Mr. Vogel. I think they have historically proven to be a 
benefit to the Service.
    Senator Alexander. Right.
    But the question is how best to implement them, right?
    Mr. Vogel. Yes.
    Senator Alexander. I have a couple of suggestions about 
that. It boils down to this--red teams and pilot programs. And 
let me say what I mean by that. At Oak Ridge we have a huge 
facility called the Uranium Processing Facility which was going 
out of control in terms of spending. It is eventually going to 
cost $6.5 billion, but Senator Feinstein and I asked the 
Department to create a red team to take a look at how to bring 
the spending under control. They asked the head of the Oak 
Ridge National Laboratory to do it. He got 14 or 15 people 
around the country who knew what they were talking about. They 
met for about two and a half months and came back with a 
recommendation that basically solved the problem.
    We asked them to do it again with a red team on the MOX 
facility in South Carolina, and they came back with a 
recommendation in about two and a half months that, in my view, 
would solve the problem, although the problem is not yet 
solved.
    My point is the normal government way of solving problems 
takes a long time, but in those examples they were able to move 
quickly, like within two or three months.
    Why not ask the Secretary to appoint a red team, somebody 
who knows a lot about parks, conservation service, these 
programs, assemble a group of 12 or 15 people informally, to 
take a look at it and recommend what to do and get it done in 
say, 90 days? Would that work?
    Mr. Vogel. I would be more than happy to take your 
recommendation back to the Secretary, and I feel comfortable in 
saying that he is committed to doing an expeditious review of 
this and that we could hopefully, soon, provide a formal 
position on this.
    Senator Alexander. The other thing you might consider are 
pilot programs. Typically in government, if McDonald's wants to 
introduce a new gravy, it doesn't introduce it everywhere in 
the country. It tries it out in Pittsburgh for a while to see 
whether people like it or not.
    These are not brand new ideas or ideas you know a lot 
about. The questions just are how best to implement them--with 
a new Administration, decision-making may take a while. Maybe 
the red team could say why don't we start out with these five, 
you know, let's start out in five different places.
    Let's go to the Smokies, for example, where fourth graders 
can already get in free because there is no entrance 
requirement. But let's expand the Conservation Corps there, 
operate it for a year and see how it works before we try it 
everywhere else, or let's go to Yellowstone and do it.
    So my suggestion is, since it has broad, bipartisan support 
and since these are two ideas that make obvious good sense to 
everybody, that maybe a red team type of review that could be 
done in 90 days and to begin with some action rather than 
waiting to decide how to apply every single place in the United 
States, might be a sensible way to get started. What about 
that?
    Mr. Vogel. It sounds like an interesting approach and I, 
again, would be happy to take that back to the Secretary and 
see if we could make that happen.
    Senator Alexander. Well, I would appreciate your doing that 
because I know the Secretary is action-oriented and sometimes 
it takes doing things a little bit differently to get that kind 
of result.
    I grew up, basically, in the national parks and I live 
within two miles of the Great Smokies, and my whole life has 
changed because of it. In scouting we went there every weekend, 
so I still go there a lot and I see on a regular basis what 
volunteers can do. We could not keep our trails in good shape 
and the park in good shape. We have retired people from Florida 
who come and spend the summer in the Smokies and do all this 
hard work and then they go back home. They love to do it, and 
it does not cost us anything.
    I would appreciate your taking back to the Secretary the 
suggestion of, number one, red teams, and number two, pilot 
programs and broad, bipartisan support for both these ideas.
    Mr. Vogel. Thank you. I will, Senator.
    Senator Alexander. Are there further comments by the 
Senators?
    Senator King.
    Senator King. I think my only comment is we love what you 
do. The national parks are one of the greatest aspects of this 
country, and they mean so much to so many people.
    I just want to express my thanks to the Department and to 
the National Park Service for the great work that you do, 
representing the country beautifully all across America. So 
would you please take that back to the----
    Mr. Vogel. I certainly will, and thank you very much for 
your continued support of our national parks.
    Senator King. Thank you.
    Senator Alexander. Senator Hirono, any further comment?
    Senator Hirono. And my thanks----
    Mr. Vogel. Thank you.
    Senator Hirono. Our parks provide opportunities for being 
with nature to everyone in our country. So as we say in Hawaii, 
Mahalo.
    Mr. Vogel. Thank you.
    Senator Alexander. Thank you, Senator Hirono.
    Thank you, Mr. Vogel, for your work for our country----
    Mr. Vogel. Thank you.
    Senator Alexander. ----and on America's best idea.
    The record will remain open for 10 days so that the 
Senators and others can submit information, if they wish.
    The hearing is adjourned.
    [Whereupon, at 11:20 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
